Tl

OCKLE

2311 Douglas Street CA ; E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B te Bie contact@cocklelegalbriefs.com
st.
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

MELANIE PELCHA,
Petitioner,
Vv.
WATCH HILL BANK,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 3994 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 28th day of July, 2021.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-Slate of Nebraska & Gh
RENEE J. GOSS 9. A
= My Comm. Exp. September 5, 2023

Affiant

       

 

N Publ
jotary Public 41020
